U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 31, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Guedes v. Bureau of Alcohol, Tobacco, Firearms & Explosives, No. 19-296
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 29,
2019, and placed on the Court's docket on September 4, 2019. The response of the United States
is now due, after one extension, on November 4, 2019. We respectfully request, under Rule 30.4
of the Rules of this Court, a further extension of time to and including December 4, 2019, within
which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0296
GUEDES, DAMIEN, ET AL.
ATF, ET AL.

ALAN ALEXANDER BECK
LAW OFFICE OF ALAN BECK
2692 HARCOURT DRIVE
SAN DIEGO, CA 92123
615-905-9105
ALAN.ALEXANDER.BECK@GMAIL. COM
JOHN D. CLINE
LAW OFFICE OF JOHN D. CLINE
ONE EMBARCADERO CENTER
SUITE 500
SAN FRANCISCO, CA 94111
415-662-2260
CL1NE@JOHNDCLINELAW.COM
ADITYA DYNAR
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-908-6202
ADITYA.DYNAR@GMAIL.COM
JOHN C. EASTMAN
THE CLAREMONT INSTITUTE CENTER FOR
CONSTITUTIONAL J1JRISPRUNCE
CHAPMAN UNIVERSITY
DALE E. FOWLER SCHOOL OF LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
877-855-3330
JEASTMAN@CHAPMAN.EDU

FRANK D. GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD, VA 22160
703-321-8510
FDG@NRTW.ORG
JOSEPH GREENLEE
FIREARMS POLICY COALITION
1215 K STREET
17TH FLOOR
SACRAMENTO, CA 95814
970-485-3303
JOSEPHGREENLEE@GMAIL.COM
ERIK S. JAFFE
SCHAERR JAFFE LLP
1717K STREET NW
WASHINGTON, DC 20006
202-787-1060
EJAFFE@SCHAERR-JAFFE.COM
CALEB KRUCKENBERG
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-869-5210
CALEB.KRUCKENBERG@NCLA.LEGAL

RAYMOND J. LAJEUNESSE, JR
C/O NATIONAL RIGHTS TO WORK LEGAL
DEFENSE FOUNDATI
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD, VA 22160
703-321-8510
RJL@NRTW.ORG
JOSHUA PRINCE
CIVIL RIGHTS DEFENSE FIRM, P.C.
646 LENAPE ROAD
BECHTELSVILLE, PA 19505
610-845-3803
JOSHUA@PRINCELAW.COM
DANIEL L. SCHMUTTER
LAW OFFICES HARTMAN & WINNICKI, P.C.
74 PASSAIC STREET
RIDGEWOOD, NJ 07450
201-967-8040
DSCHMUTTER@HARTMANWINNTCKI.COM
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVENUE, NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
STEPHEN D. STAMBOULIEH
STAMBOULIEH LAW PLLC
P0 BOX 4008
MADISON, MS 39130
601-852-3440
STEPHEN@SDSLAW.US

